4
I

@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 20-982

SHARON LYNN BROWN, Petitioner,

VS.

POLK COUNTY, WISCONSIN, et al., Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE
NATIONAL ALLIANCE TO END SEXUAL VIOLENCE, NATIONAL INDIGENOUS
WOMEN’S RESOURCE CENTER, INC., BATTERED WOMEN’S JUSTICE PROJECT,
WISCONSIN COALITION AGAINST SEXUAL ASSAULT, MINNESOTA COALITION
AGAINST SEXUAL ASSAULT, COLUMBIA LAW SCHOOL SEXUALITY AND GENDER
LAW CLINIC, MINNESOTA INDIAN WOMEN SEXUAL ASSAULT COALITION, ALLIANCE
OF TRIBAL COALITIONS TO END VIOLENCE, MENDING THE SACRED HOOP,
STANDPOINT, GENDER JUSTICE, AND OUR JUSTICE IN SUPPORT OF PETITIONER
SHARON LYNN BROWN in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 3848 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of February, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

ann meric, | MOTARY-State of Nebraska
RENEE J. GOSS
! ann meric, | Exp. September 5, 2023

Notary Public

Oudaaeh. Cle

40699
